2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-725
JONMICHAEL GUY,
Petitioner,
V.

ROBERT 0. LAMPERT, Director of the
Wyoming Department of Corrections, et al.,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 7th day of February, 2020, send out
from Omaha, NE l package(s) containing 3 copies of the BRIEF IN OPPOSITION in the above entitled case. All parties
required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
BRIDGET HILL
Wyoming Attorney General

MICHAEL J. MCGRADY*
*Counsel of Record
Deputy Attorney General
WYOMING ATTORNEY
GENERAL'S OFFICE
2320 Capitol Avenue
Cheyenne, Wyoming 82002
(307) 777-7495
mike.mcgrady 1@wyo.gov
Counsel for Respondents

Subscribed and sworn to before me this 7th day of February, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

39381

Amir
Ali
Counsel of Record

Roderick & Solange MacArthur Justice Center
777 6th St. NW
11th Floor
Washington, DC 20001
amir.ali@macarthm:justice.org

Party name: JonMichael Guy

202-869-3434

